           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION’S
          OVERSIGHT OF MDRC
       CONTRACT NO. SS00-06-60075

     December 2008    A-15-08-18010




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   December 22, 2008                                                                 Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Oversight of MDRC Contract No. SS00-06-60075
        (A-15-08-18010)


        OBJECTIVE
        Our objectives were to (1) review the services provided by MDRC 1 and the related costs
        charged to the Social Security Administration (SSA) for adherence to the negotiated
        contract terms and applicable regulations and (2) ensure SSA personnel properly
        monitored the contract.

        BACKGROUND

        Accelerated Benefits Demonstration Project

        The Disability Insurance (DI) program provides cash and Medicare benefits to qualified
        disabled individuals under age 65 who are unable to perform substantial gainful activity.
        After undergoing a 5-month waiting period to receive DI benefits, 2 individuals must wait
        an additional 24 months 3 to become eligible for Medicare benefits. 4 Many of these
        newly entitled DI beneficiaries have no health insurance and, therefore, have limited
        access to medical care when access to those resources might improve their medical
        condition and increase their ability to improve their self-sufficiency through employment.
        SSA initiated the Accelerated Benefits (AB) demonstration project to test whether
        providing immediate health benefits to these beneficiaries will result in improved health
        and better return to work outcomes. 5
        1
          In 1974, MDRC was founded as the Manpower Demonstration Research Corporation. However, in
        2003, the company formally adopted the name "MDRC." MDRC is a nonprofit, nonpartisan social policy
        research organization with headquarters in New York City and a regional office in Oakland, California.
        2
            42 United States Code (U.S.C.) § 423(a)(1)(E).
        3
            42 U.S.C. § 426(b).
        4
            Medicare is the federally funded health insurance program for the aged and disabled.
        5
            SSA’s Program Operations Manual System, DI 60035.001 Accelerated Benefits Demonstration Project.
Page 2 - The Commissioner



Contract Number SS00-06-60075

On January 20, 2006, SSA contracted with MDRC to obtain technical assistance in the
implementation and evaluation of the AB demonstration project. The AB project
provided an immediate medical benefits package and employment support to certain
beneficiaries upon approval of their Social Security Disability Insurance (SSDI) claim.
The contract stated that the contractor will carry out the implementation, data collection,
and evaluation activities for this program. Furthermore, MDRC will provide SSA with a
final report, which will address the central research question: “What is the effect of
providing accelerated medical benefits on improving the health and return to work
outcomes for certain SSDI beneficiaries?” The cost-plus-fixed-fee contract was
awarded for approximately $40.9 million. As of April 2008, there were six modifications
to this contract and the estimated total cost to the Government for full contractor
performance of this contract was approximately $42.9 million. 6 The approximately
$2 million increase was due to the inclusion of the health benefits packages and the
system security plan. The contract period of performance is January 20, 2006 to
January 19, 2011.

MDRC is expected to enroll 2,000 individuals in the AB demonstration project in
2 phases. Participants selected for the AB demonstration project must meet all of the
following criteria:

       newly entitled to SSDI benefits;
       under age 55;
       no health insurance coverage;
       18 or more months away from being eligible for Medicare benefits; and
       living in a participating site.

Beneficiaries selected for the demonstration project were assigned randomly to one of
three treatment groups: AB, AB Plus, and control (see Appendix C for definitions).
MDRC completed Phase I and enrolled 66 participants, 7 as follows: 13 participants for
AB group; 26 participants for AB Plus group; and 27 participants for control group. All
participants will receive SSDI cash benefits. Currently, MDRC is in Phase II and is
expected to enroll the remaining 1,934 individuals. 8




6
 As of October 2008, the amount expended on the contract was approximately $8.6 million of the
$42.9 million, or approximately 20 percent of the contract value.
7
 Phase I enrollments occurred in October and November 2007. MDRC enrolled participants from four
participating metropolitan areas: New York, Houston, Minneapolis, and Phoenix.
8
  Phase II enrollment began in March 2008 and will continue up to 12 months or until full enrollment is
reached. Enrollment is expected to be completed by the end of the calendar year. MDRC will select
participants from 53 participating metropolitan statistical areas throughout SSA’s 10 regions.
Page 3 - The Commissioner


RESULTS OF REVIEW
With the exception of notifying SSA of all staff assigned to the contract for Agency
suitability 9 determinations, MDRC generally adhered to the contract terms and delivered
the services SSA requested under the contract. We reviewed the 66 beneficiaries
selected for Phase I of the demonstration project and determined they met the criteria
for selection. In addition, we found that the same criteria properly excluded 355
ineligible beneficiaries from participating in the AB demonstration project. Also, we
found that MDRC was operating within contract guidelines for the total cost of the
contract.

While SSA properly managed and monitored the contract, we identified a number of
instances where the Agency could have been more efficient in the initial planning,
management and monitoring of the contract. Specifically, we found MDRC completed
Phase I within the required time frames. However, this was achieved despite
inefficiencies surrounding the (1) development of the health benefits package,
(2) identification of the target population, (3) management of the Office of Management
and Budget’s (OMB) clearance process, and (4) inclusion of a systems security plan.

Suitability Determination Issues

We found three suitability determination issues: (1) contractor failed to obtain suitability
determinations for individuals working on the project, (2) individuals received suitability
determinations under other contracts, and (3) a contract employee with an “unsuitable”
determination had access to personally identifiable information (PII). 10




9
  Title 5 Code of Federal Regulation § 731.104(a) states that to establish a person’s suitability for
employment, appointments to positions in the competitive service require the person to undergo an
investigation by the Office of Personnel Management (OPM) or by an agency with delegated authority
from OPM to conduct investigations. At SSA, contract employees are investigated at the same risk level
as federal employees who would be performing the same type of work. Refer to appendix D for a list of
contract suitability factors.
10
  OMB Memorandum 07-16, Safeguarding Against and Responding to the Breach of Personally
Identifiable Information, defines PII as information that can be used to distinguish or trace an individual's
identity, such as their name, Social Security number, biometric records, etc., alone or when combined
with other personal or identifying information, which is linked or linkable to a specific individual, such as
date and place of birth, mother’s maiden name, etc.
Page 4 - The Commissioner


Contractor Failed to Obtain Suitability Determinations for Individuals Working on the
Project

MDRC provided a list of 315 individuals working on the project as shown in Table 1:


                         Table 1 - Number of Individuals on AB Project
                                                            Number of
                                 Description               Contractors
                      Contractors With Access to PII               156
                      Contractors Without Access to PII            159
                      Total                                        315

When we compared MDRC’s list to the names MDRC provided to SSA for suitability
determinations, we identified 6 individuals who did not obtain a suitability determination
from SSA’s Center for Personnel Security and Project Management (CPSPM). In this
instance, MDRC did not comply with the terms of the contract. According to the
contract, SSA’s protective security suitability program officer 11 makes the final suitability
determination for each contractor employee who does and does not require access to
program or sensitive systems information. 12 Therefore, we recommend that SSA
consistently monitor the staffing of the contractor and any subcontractors to ensure they
are receiving the appropriate suitability determinations.

Individuals Received Suitability Determinations Under Other Contracts

Further analysis of the 315 individuals whom MDRC identified as working on the AB
contract revealed that 127 of the individuals received suitability determinations under
other contracts with SSA, as shown in Table 2.

                    Table 2 - Individuals with a Suitability Determination
                                           Under Other        No Suitability
                              Under             SSA           Determination
          Description     AB Contract Contracts/Grant           Performed                   Total
      Access to PII 13               102                      54                     0       156
      No Access to PII                80                      73                     6       159
      Total                          182                     127                     6       315




11
     SSA’s Protective Security Suitability Program Officer is a part of the CPSPM team.
12
     Contract Number SS00-06-60075, Section H-7, Security Requirements.
13
  MDRC provided us with a list of 156 individuals who had access to PII, and we relied on the data
provided by the contractor. However, we did not independently verify this information.
Page 5 - The Commissioner


It appears MDRC assigned these 127 people to the AB contract without notifying SSA.
In situations where contracts have similar suitability requirements, such a practice may
not create a significant risk. However, when the contracts have different suitability
requirements, there is a risk that individuals assigned to one contract may not have the
proper suitability determination to work under another contract. In other words, the
adjudication level on the other contracts should be no less than the adjudication level on
the AB contract. SSA cannot make an assessment of whether the individuals have the
proper suitability determination unless they know who is assigned to the contract.

To determine whether MDRC’s failure to identify all contract employees resulted in
individuals being assigned to the contract without the proper suitability determination,
we focused on the 54 employees who had access to PII but had a suitability
determination under another contract with SSA. CPSPM reviewed its documentation for
the 54 individuals and determined that the adjudication levels for the other contracts
were not lower than the level required for the AB contract.

CPSPM personnel stated that a contractor employee could have a suitability
determination under another contract without getting additional clearance. However,
CPSPM should be notified so SSA can determine whether the appropriate level of
investigation was conducted and its database records adjusted to reflect that the
individual is working on another contract.

According to SSA policy, all SSA positions must be designated at the proper
risk/sensitivity levels commensurate with the public trust or national security
responsibilities and attributes of the position as they relate to the efficiency of the
service. Furthermore, the position risk-level designations must be clearly and properly
established as an initial step in filling all SSA and contractor positions to ensure the
proper type and timing of investigations. The required investigation serves as a basis
for ensuring that employment of the individual in a sensitive or public trust position is
appropriate. 14

We recommend that SSA include appropriate language in any future contracts to
ensure the contractor notifies SSA’s contracting officer and contracting officer technical
representative (COTR) of all contractor staff assigned to the contract. Subsequent to
our fieldwork, SSA personnel stated that new contract language was developed to
ensure that CPSPM and the COTR will be notified when any contractor or subcontractor
personnel begin working under the contract.

Contract Employee with “Unsuitable” Determination had Access to PII

We reviewed the suitability determinations for 156 contractor employees on this contract
who had access to PII. We identified one instance where the contractor had access to
PII, but SSA determined the individual was “unsuitable” to work on the contract. In this
instance, MDRC misunderstood SSA’s initial notification statement “suitability
determinations were completed” to mean that this individual had a “suitable”
14
     Information Systems Security Handbook, Appendix J: Personnel Security and Suitability Program.
Page 6 - The Commissioner


determination. When MDRC discovered the "unsuitable" determination, the employee
(a subcontractor with Mathematica Policy Research, Inc.) was removed from the
project. According to MDRC, the unsuitable employee worked on the project for
2 months.

We did not independently determine whether PII was actually exposed during the period
the contractor employee worked on the contract. However, MDRC informed the COTR
of the breach and SSA decided that because there was no reason to believe that the PII
disclosed was “likely to lead to misuse,” an incident report was not needed.

According to the contract, personnel who perform work under the contract 15 should
obtain suitability determinations before working on the contract. Therefore, SSA must
remain committed to safeguarding its sensitive information. We recommend that SSA
monitor the staffing of the contractor and any subcontractors to ensure only approved
staff is allowed access to SSA’s facilities and program and sensitive information.

Inefficiencies in the Contract’s Initial Planning, Management and Monitoring

We identified a number of instances where the Agency could have been more efficient
in the contract’s initial planning, management and monitoring. The contract was
modified for various reasons (for example, adding the health benefits requirement;
adding a system security plan; increasing available funding for medical claims and
processing fees; and changing the deliverable schedule), and the due dates for some of
the deliverables were not revised. As a result, some of the early deliverables were
behind schedule and in one instance, as much as 476 days.

Currently, the project is on track to meet the due dates. However, the process could
have been more efficient had additional attention been given to the (1) development of
the health benefits package, (2) identification of the target population, (3) management
of the OMB clearance process, and (4) inclusion of a systems security plan.

Development of the Health Benefits Package for Participants

SSA personnel stated that the project was behind schedule because MDRC needed to
develop the health benefit packages for the participants. SSA had originally planned to
award a contract for a Health Benefits Administrator who would oversee the health
benefits packages for participants in all of the demonstration projects for the Office of
Retirement and Disability Policy’s Office of Program Development and Research
(OPDR). Therefore, the initial MDRC contract did not include a health benefits




15
  Contract Number SS00-06-60075, Section H-7, Security Requirements. “Performing under the
contract” is defined as either working on-site at an SSA facility (including visiting the SSA site for any
reason) or having access to Agency programmatic or sensitive information.
Page 7 - The Commissioner


package. OPDR did not award the health benefits contract, and the AB contract was
amended to allow MDRC to develop the health benefits package for the project
participants. 16

Identification of the Target Population

Initially, the project was supposed to target SSDI beneficiaries who had impairments
most likely to improve and who, with medical and employment support, would most
likely return to work. This population included beneficiaries whose records were coded
Medical Improvement Expected (MIE) and Medical Improvement Possible (MIP).
MDRC expected most of SSA’s sample file of the population to have musculoskeletal or
mood disorders. However, the sample file contained other types of impairments under
the MIE and MIP designations. 17 In November 2006, SSA agreed to expand the
population to include all new SSDI beneficiaries. In our opinion, had SSA performed the
background work on the population earlier, the target population may have been defined
sooner.

Management of the OMB Clearance Process

The original contract stated that the contractor shall obtain the required OMB clearance
through the COTR before expending any funds or making public contacts for the
collection of data. Specifically, section H-11 of the contract states

          The Paperwork Reduction Act of 1986 (Pub. L. 96-511) shall apply to this
          contract for the requirement(s) to collect or record information calling either for
          answers to identical questions from 10 or more persons other than Federal
          employees, or information from Federal employees which is outside the scope
          of their employment, for use by the Federal government or disclosure to third
          parties. No plan, questionnaire, interview guide or other similar device for
          collecting information (whether repetitive or single-time) may be used without
          first obtaining clearance from the Office of Management and Budget (OMB).




16
  In July 2006, SSA wrote a Justification for Other than Full and Open Competition and modified the
contract to include the health benefits package. This modification increased the contract cost by
approximately $1.6 million. The original independent Government cost estimate was for approximately
$1.2 million; a difference of only approximately $400,000. Also, the independent Government cost
estimate dated April 27, 2006 was revised to $1.6 million. Therefore, there is no additional cost to SSA
when compared to the revised independent Government cost estimate.
17
     Approximately 50 percent of the sample has a primary diagnosis of neoplasms.
Page 8 - The Commissioner


In August 2006, SSA required that MDRC submit the “full clearance” 18 package instead
of the “generic clearance” 19 package. MDRC drafted the Federal Register Notice for
the AB demonstration project, which was part of the OMB clearance package. The
OMB clearance package was for the baseline and follow-up surveys.

In November 2006, MDRC learned it was necessary to submit a supporting statement
with the Federal Register Notice as well as brief OMB on the OMB clearance package.
Also, the Federal Register Notice and OMB clearance package were revised for
changes to the project target population and follow-up surveys. The Federal Register
Notice was published in January 2007, and OMB provided its approval in August 2007.
Also, SSA did not account for the OMB clearance process in the deliverable schedule
even though it was a contract requirement. The OMB clearance approval should have
been included as a deliverable item. Therefore, SSA should have appropriately
adjusted the timeline for the OMB clearance process as part of the contract planning,
managing and monitoring.

Inclusion of a System Security Plan

Initially, the MDRC contract awarded in January 2006 did not require a system security
plan. According to the contracting officer, when the request for proposal was written,
SSA did not anticipate the need for the systems security requirements. However, SSA
informed MDRC that a system security plan that conformed to the standards set forth by
the National Institute of Standards and Technology was required. Some of MDRC’s
work was delayed while awaiting SSA’s approval of the system security plan. In
September 2007, the AB contract was amended to incorporate the requirement for the
system security plan. 20 The system security plan for MDRC’s subcontractor was
approved in October 2007, and the system security plan for MDRC was approved in
December 2007.

Based on our meeting with MDRC and our review of the deliverables, as of May 2008
SSA had received all of the deliverables that were due. According to the COTR, none
of these delays will impact the completion of the project by 2011. Because the survey
work did not require as much time as originally estimated, MDRC was able to get back
on schedule. Better planning may have reduced the risks of the contract falling behind
at the beginning. In addition, SSA needs to closely monitor the delivery schedule to
ensure future deliverables are timely.

18
   OMB clearance is required anytime information is collected from 10 or more members of the public in
any 12-month period. It normally takes about 138 calendar days to obtain OMB approval for a public
information collection, such as a form or survey. This includes publishing two Federal Register Notices
with comment periods.
19
  Generic clearance can only be used to measure customer satisfaction with SSA’s services and
products.
20
  SSA modified the contract to include the requirement for the system security plan. This modification
increased the contract cost by approximately $400,000. We took no exceptions to the modification
process.
Page 9 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
With the exception of notifying SSA of all staff assigned to the contract for Agency
suitability determinations, MDRC was conducting the AB demonstration project within
the contract terms and delivered the services required under the contract. However,
SSA needs to enhance its oversight regarding suitability determinations for contractors.

Also, SSA personnel were properly managing and monitoring the MDRC contract;
however, we identified a number of instances where the Agency could have been more
efficient in the initial planning, management and monitoring of the contract.

Specifically, we recommend SSA:

1. Obtain and maintain an updated list of all contractor personnel (including
   subcontractors) working on the AB contract with or without access to PII.

2. Ensure that contractor personnel (including subcontractors) working on the AB
   contract receive the appropriate suitability determinations even if the individual was
   previously adjudicated under another contract.

3. Ensure that contractor personnel (including subcontractors) assigned to the AB
   contract have a favorable suitability determination before allowing the individual to
   work on the project.

4. Monitor the delivery schedule on the MDRC contract to ensure timely deliverables.

AGENCY COMMENTS AND OIG RESPONSE

SSA provided specific comments on the suitability issues and the delivery schedule
discussed in our report. SSA agreed with our recommendations. SSA’s comments are
included in Appendix E.


                                                 S
                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Treatment Groups
APPENDIX D – Suitability Factors
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
AB       Accelerated Benefits
CPSPM    Center for Personnel Security and Project Management
COTR     Contracting Officer Technical Representative
DI       Disability Insurance
MIE      Medical Improvement Expected
MIP      Medical Improvement Possible
OIG      Office of the Inspector General
OMB      Office of Management and Budget
OPDR     Office of Program Development and Research
OPM      Office of Personnel Management
PII      Personally Identifiable Information
SSA      Social Security Administration
SSDI     Social Security Disability Insurance
U.S.C.   United States Code
                                                                                   Appendix B

Scope and Methodology
To accomplish our objectives, we:

       Reviewed the MDRC Contract No. SS00-06-60075 and contract modifications for
        Fiscal Years 2006 through 2008. 1 Also, we determined whether the increase in
        the contract cost appeared reasonable.

       Reviewed the Social Security Administration’s (SSA) Program Operations
        Manual System sections related to Accelerated Benefits. In addition, we
        reviewed SSA’s Administrative Instructions Manual System, Information Systems
        Security Handbook.

       Reviewed 66 participants selected for enrollment in Phase I of the demonstration
        project.

       Reviewed 355 individuals screened and found to be ineligible to participate in
        Phase I of the demonstration project.

       Reviewed 5 invoices, each totaling over $200,000, and 1 adjustment invoice from
        the 24 invoices paid during the period January 2006 through November 2007.
        The 24 invoices totaled approximately $3.1 million.

       Reviewed deliverables that were due from January 2006 through May 2008.

       Evaluated internal controls at MDRC and SSA’s Offices of Acquisition and Grants
        and Finance to determine whether the processes were functioning properly, such
        as, contract invoices were properly reviewed and paid.

       Evaluated Office of Program Development and Research’s oversight of MDRC to
        ensure the contractor’s compliance with the contract, which included SSA’s
        examining and approving of MDRC’s invoices for our sample group.

       Interviewed staff at MDRC and SSA’s Offices of Program Development and
        Research, Acquisition and Grants, and Finance.

We performed our audit at the SSA Headquarters and MDRC headquarters in New York
from December 2007 through July 2008. We found the data used for this audit were
sufficiently reliable to meet our objectives. The entities audited were the Offices of
Acquisition and Grants and Program Development & Research.

1
    There were six modifications to Contract No. SS00-06-60075 as of April 2008.


                                                    B-1
We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our objectives.




                                         B-2
                                                                                    Appendix C

Treatment Groups
The 2,000 participants 1 in the Accelerated Benefits (AB) Demonstration will be placed in
1 of 3 treatment groups.

AB

The participants in the AB group receive their regular Social Security Disability
Insurance (SSDI) benefits as well as health benefits. The health benefits will pay for
most of the participants’ health care costs up to $100,000. The health plan is available
until the participant becomes eligible for Medicare coverage, reaches the
$100,000 benefit limits, or the project ends. The plan is only available to the
participant and it does not include the participant’s spouse or dependents.

AB Plus

The participants in the AB Plus group receive their regular SSDI benefits as well as
health benefits and support under a care management model. This model involves
working with a team of coaches, nurses and employment counselors, who can help the
participant achieve their goals and access the supports needed. The health plan is
available until the participant becomes eligible for Medicare coverage, reaches the
$100,000 benefit limits, or the project ends. The plan is only available to the participant
and does not include the participant’s spouse or dependents.

Control

The participants in the control group will retain their regular SSDI benefits. The
participants in this group are compared with the other treatment groups in determining
whether receiving health benefits affects participants’ health and employment
outcomes.




1
 Total enrollment for the 3 groups will be: 400 participants for AB group; 800 participants for AB Plus
group; 800 participants for control group.
                                                                                   Appendix D

Suitability Factors
Section H-7 of the contract provides the procedures for obtaining suitability
determinations for contractor personnel who will be performing under the contract.
Specifically, the contract states that suitability factors include:

    • Delinquency or misconduct in prior employment.

    • Criminal, dishonest, infamous, or notoriously disgraceful conduct.

    • The nature and seriousness of the conduct.

    • When the conduct occurred.

    • The applicant’s or employee's 1 age at the time of the conduct.

    • The circumstances surrounding the conduct.

    • Intentional false statement, deception, or fraud on application forms.

    • Habitual use of intoxicating beverages to excess.

    • Abuse of narcotics, drugs, or other controlled substances.

    • Reasonable doubt as to the loyalty of the individual to the Government of the
      United States.

    • The kind of position for which the person is applying or in which the person is
      employed.

    • Contributing social and environmental conditions.

    • The absence or presence of rehabilitation or efforts towards rehabilitation.




1
 At the Social Security Administration (SSA), contract employees are investigated at the same risk level
as Federal employees who would be performing the same type of work. The Office of Personnel
Management conducts investigations for SSA on all contract employees who perform program-related
work, including functions determined to be at either the Public Trust (Low, Moderate or High Risk) or
National Security (Noncritical-Sensitive or Critical-Sensitive) Level.
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      December 16, 2008                                                     Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "The Social Security Administration’s
           Oversight of MDRC Contract No. SS00-06-60075” (A-15-08-18010)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Our response to the report findings and recommendations is
           attached.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment:
           SSA Response




                                                         E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S OVERSIGHT OF
MDRC CONTRACT NO. SS00-06-60075” (A-15-08-18010)

We appreciate the careful and comprehensive work that the OIG auditing team did on
this report and believe that the changes we have made to the project as a result of the OIG
recommendations will reduce the potential for problems during the remainder of the
contract.

Our response to the recommendations is as follows.

Recommendation 1

Obtain and maintain an updated list of all contractor personnel (including subcontractors)
working on the Accelerated Benefits (AB) contract with or without access to personally
identifiable information (PII).

Comment

We agree. We have received the list and will regularly update it as we add new
employees to the project.

Recommendation 2

Ensure that contractor personnel (including subcontractors) working on the AB contract
receive the appropriate suitability determinations even if the individual was previously
adjudicated under another contract.

Comment

We agree. We have developed a new application, the Contractor Enrollment Request
Management System (CERMS). CERMS will help us better manage the contractor
personnel screening process. We will also use the updated list that we develop as a result
of our action on the first recommendation to better monitor the suitability determination
of all individuals working on the project.

Recommendation 3

Ensure all contractor personnel (including subcontractors) who work on the AB contract
have a favorable suitability determination before allowing the individual to work on the
project.




                                           E-2
                                                                                       2

Comment

We agree. We had a discussion with MDRC regarding this issue and learned one
individual was allowed to work on the contract before the suitability determination
was received. MDRC’s explanation was that they misunderstood an e-mail message
stating that the determinations for a group of employees “were completed” to mean that
those determinations were favorable. However, one of the employees had an
“unfavorable” determination, and that individual was removed from the contract. We
will continue to remind MDRC that all individuals must have a favorable suitability
determination before performing work on the project. The new procedures that are in
place, such as CERMS, will help us minimize the chances of an individual working on
the project before receiving a favorable determination. The actions described in the first
two recommendations will also help us address this recommendation.

Recommendation 4

Monitor the delivery schedule on the MDRC contract to ensure timely deliverables.

Comment

We agree. We have a spreadsheet that we are using to track all contract deliverables and
will use it, along with regular meetings with the contractor, to ensure that the project
remains on track for timely completion of all deliverables.




                                           E-3
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kristen Schnatterly, Director, Technical Services Division (410) 965-0433

   Mark Meehan, Acting Audit Manager, Financial Audit Division (410) 966-7147

Acknowledgments

In addition to those named above:

   Donna Parris, Auditor-in-Charge

   Tonia Hill, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A- 15-08-18010.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
